<html>
<title> - SMART MOBILITY: IT'S A COMMUNITY ISSUE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                             SMART MOBILITY:
                         IT'S A COMMUNITY ISSUE

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2019

                               __________

                           Serial No. 116-51

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
38-135 PDF             WASHINGTON : 2020       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
VACANCY
                                 ------                                

                Subcommittee on Research and Technology

                HON. HALEY STEVENS, Michigan, Chairwoman
DANIEL LIPINSKI, Illinois            JIM BAIRD, Indiana, Ranking Member
MIKIE SHERRILL, New Jersey           ROGER MARSHALL, Kansas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
PAUL TONKO, New York                 ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    JAIME HERRERA BEUTLER, Washington
STEVE COHEN, Tennessee
BILL FOSTER, Illinois

                         C  O  N  T  E  N  T  S

                            October 25, 2019

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     7
    Written Statement............................................     8

Statement by Representative Michael Cloud, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     9
    Written statement............................................    10

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    11

                               Witnesses:

The Honorable David Coulter, Oakland County Executive
    Oral Statement...............................................    13
    Written Statement............................................    15

Mr. Mark Dowd, Executive Director, Smart Cities Lab
    Oral Statement...............................................    20
    Written Statement............................................    22

Dr. Raj Rajkumar, Director of Mobility21 and George Westinghouse 
  Professor of Electrical and Computer Engineering, Carnegie 
  Mellon University
    Oral Statement...............................................    28
    Written Statement............................................    31

Dr. Tierra Bills, Assistant Professor, Civil and Environmental 
  Engineering, College of Engineering, Wayne State University
    Oral Statement...............................................    40
    Written Statement............................................    42

Mr. Scott Averitt, Technical Expert and Manager of Public/Private 
  Partnerships, Robert Bosch LLC
    Oral Statement...............................................    50
    Written Statement............................................    52

Discussion.......................................................    64

              Appendix: Additional Material for the Record

Letters submitted by Representative Haley Stevens, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    82

Presentation submitted by Mr. Scott Averitt, Technical Expert and 
  Manager of Public/Private Partnerships, Robert Bosch LLC.......   102


                            SMART MOBILITY:

                         IT'S A COMMUNITY ISSUE

                              ----------                              


                        FRIDAY, OCTOBER 25, 2019

                  House of Representatives,
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10:01 a.m., at 
Livonia City Hall, 33000 Civic Center Drive, Livonia, Michigan, 
Hon. Haley Stevens [Chairwoman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Stevens. This hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time.
    Good morning. Welcome. It's truly significant to be here 
today in Livonia, Michigan. I am delighted to host today's 
hearing and extend my warmest welcome and thank you to my 
esteemed colleagues, Congressman Bill Foster of Illinois and 
Congressman Michael Cloud of Texas. We thank our Chairwoman 
Eddie Bernice Johnson and Ranking Member Jim Baird, who could 
not be with us here today for the hearing but are supportive 
partners of today's event.
    We also recognize our recently departed colleague, 
Congressman Elijah Cummings of Maryland. Mr. Cummings was a 
known and calming presence in the halls of Congress. Reflecting 
on his legacy and his wishes for our Congress, Mr. Cummings 
would be doing exactly what we are doing here today: Figuring 
out ways to advance our country and to help his district.
    He had a significant emphasis in our Congress, incredible 
talents, and a voice that spoke truth. As his body lay in state 
yesterday in the Capitol, my colleagues and I said goodbye to a 
man who worked up until his last living moments on this earth. 
May we all be so lucky to witness such service to others and 
love of the beautiful country we call home.
    We are here today to examine the use of smart technology to 
improve the abilities of small cities and suburban communities 
to provide safe and efficient mobility solutions. Smart 
mobility: It's a community issue.
    Michigan's 11th District has been on the forefront of these 
innovations, playing a key role with our industry leaders and 
best-in-class workforce, so it is only fitting that we gather 
here today to discuss how to make technology more effective 
through collaboration between public, private, and academic 
stakeholders.
    These are some of the questions that compel the work of 
Congress: How to best use government to yield the best results 
for regional economies like ours. Recent developments in 
connected and autonomous vehicles, combined with increasing 
computing power and travel data, have enabled rapid advances in 
regional planning and mobility. Smart mobility technologies 
have already begun to shape how Americans move around and live. 
They are being used to reduce traffic congestion and cut 
emissions.
    A 2019 study by Texas A&M University found that national 
gridlock costs our country $166 billion per year. The most 
recent highway bill, the Fixing America's Surface 
Transportation Act, the FAST Act, provides some funding for 
smart mobility, including $60 million per year for the new 
Advanced Transportation and Congestion Mitigation Deployment 
Program and support for several University Transportation 
Centers focused on improving the mobility of people and goods. 
While these investments are important, like most of our 
transportation and infrastructure investments, we must do much 
more to meet the scale of the challenge and opportunity.
    Smart mobility technologies also have the potential to move 
us toward the goal of a society with zero traffic fatalities. 
The National Highway Traffic Safety Administration announced 
just this week that overall highway fatalities decreased by 2.4 
percent in 2018, the second year of declines. However, nearly 
40,000 people lost their lives on our roadways. The same report 
showed that pedestrian fatalities increased 3.4 percent and 
bicycle fatalities increased 6.3 percent.
    Finally, these technologies have the potential to provide 
affordable and reliable transportation to basic services like 
health care and employment for those living with disabilities, 
older adults, and others who do not have access to individual 
transportation. We need to start having a broader conversation 
about how smart technology can be applied in all communities. 
What works within major city limits may not work in the suburbs 
or small towns in which mobility options are more limited. The 
solution involves working with our communities, including our 
city councils, township boards, and county commissions across 
America with their unique needs in mind. Research is essential 
to achieving this goal.
    In addition to supporting near-term deployment and testing 
of new technologies, it is important to invest in long-term 
research that looks beyond the horizon of today's capabilities. 
When America becomes a leader in the equitable development of 
mobility solutions, we will yet again set the standards and 
norms the rest of the world will follow.
    So welcome to this insightful dialog on the transformations 
and capabilities of the 21st century mobility technologies in 
the home of American transportation.
    [The prepared statement of Chairwoman Stevens follows:]

    Good morning. It is truly significant to be gathered here 
today in Livonia, Michigan. I'm delighted to host today's 
hearing and extend the warmest welcome and thank you to my 
esteemed colleagues, Congressman Bill Foster of Illinois and 
Congressman Michael Cloud of Texas.We thank our Chairwoman 
Eddie Bernice Johnson and Ranking Member Jim Baird who could 
not join us for the hearing but are supportive partners of this 
effort.We also recognize the recently departed Congressman 
Elijah Cummings of Maryland. Mr. Cummings was a known and 
calming presence in the halls of Congress. Reflecting on his 
legacy and his wishes for our Congress, Elijah would be doing 
exactly what we are doing here today - figuring out ways to 
advance his country and help his district.
    He had a specific emphasis on our future, incredible 
talents, and voice that spoke truth. As his body lay in state 
yesterday in the Capitol, my colleagues and I said goodbye to a 
man who worked up until his last living moments on this earth.
    May we all be so lucky to witness such service to others 
and love of the country we call home.
    We are here today to examine the use of smart technology to 
improve the ability of small cities and suburban communities to 
provide safe and efficient mobility solutions.
    Michigan's 11th district has been on the forefront of these 
innovations, playing a key role with our industry leaders and 
best-in-class workforce, so it's only fitting that gather here 
today to discuss how this technology can be made more effective 
through collaboration between public, private, and academic 
stakeholders.
    These are some of the questions that compel the work of 
Congress - how to effectively use government to yield the best 
results for regional economies like ours.
    Recent developments in connected and autonomous vehicles, 
combined with increasing computing power and travel data, have 
enabled rapid advances in regional planning and mobility. Smart 
mobility technologies have already begun to shape how Americans 
move around and live. They are being used to reduce traffic 
congestion and cut emissions. A 2019 study by Texas A&M 
University found that national gridlock costs our country $166 
billion per year.
    The most recent highway bill, the Fixing America's Surface 
Transportation Act, the FAST Act, provides some funding for 
smart mobility, including $60 million per year for the new 
Advanced Transportation and Congestion Mitigation Deployment 
Program and support for several University Transportation 
Centers focused on improving the mobility of people and goods. 
While these investments are important, like most of our 
transportation and infrastructure investments, we must do much 
more to meet the scale of the challenge.
    Smart mobility technologies also have the potential to move 
us towards the goal of a society with zero traffic fatalities. 
The National Highway Traffic Safety Administration announced 
this week that overall highway fatalities decreased by 2.4% in 
2018, the second year of declines. Which still means that 
nearly 40,000 people lost their lives on our roadways. The same 
report showed that pedestrian fatalities increased 3.4% and 
bicyclists fatalities increased 6.3 %.
    Finally, these technologies have the potential to provide 
affordable and reliable transportation to basic services like 
healthcare and employment for those living with disabilities, 
older adults, and others who do not have access to individual 
transportation.
    We need to start having a broader discussion about how 
smart technology can be applied in all communities. What works 
within major city limits may not work in the suburbs or in 
small towns in which mobility options are limited. This will 
involve working with our communities including city councils, 
township boards, and county commissions to develop mobility 
solutions with the unique needs of our communities in mind.
    Research is essential to realizing this goal. In addition 
to supporting near term deployment and testing of new 
technologies, it is important to invest in long-term research 
that looks beyond the horizon of today's capabilities. When 
America becomes a leader in the equitable development of 
mobility solutions, we will yet again set the standards and 
norms the rest of the world will follow.
    Welcome to this insightful dialogue on the transformations 
and capabilities of 21st century mobility technologies in the 
home of American transportation.

    Chairwoman Stevens. Before I recognize Mr. Cloud for his 
opening statement, I would like to present for the record a 
robust set of letters of support from Pratt Miller, Ford Motor 
Company, BASF, Toyoda Gosei, Rolls-Royce, Harman International, 
General Motors, ZF North America, and ITS. Thank you all so 
much.
    And now the Chair recognizes Mr. Cloud for an opening 
statement.
    Mr. Cloud. Thank you, Chairwoman Stevens. I appreciate the 
invitation to be with you here today in Michigan's 11th 
District. I am excited to be here and look forward to the 
conversation today. Thank you, witnesses, for being here, and 
thank you all for caring about this issue and showing up. I'm 
looking forward to a very healthy conversation on an issue 
that's really important as we look forward.
    All of us on this Committee are aware of the challenges our 
Nation is facing with our aging infrastructure. But as we look 
to address these issues and support and that we take time to 
look ahead and dream about the future that can be to ensure 
that our public policy skates to where the puck is going so to 
speak.
    Fundamental research can drive innovation that yields 
better and safer commutes for our constituents. These 
technologies, like enhanced safety features in vehicles, smart 
infrastructure, and wireless communication between vehicles and 
infrastructure, have the potential to benefit folks from rural 
south Texas or the suburbs of Detroit. Smart mobility has the 
potential to increase safety and reduce congestion, and as we 
work, we must ensure that smart mobility technologies also 
advance a better quality of life for all communities.
    Citizens in urban, suburban, and rural communities rely on 
our transportation infrastructure to go to work, to attend 
school, to keep medical appointments, run errands, and travel 
to recreational activities. According to the Texas A&M 
Transportation Institute, the rural transit system in Texas 
faces increasing demand from a growing population of older and 
disabled residents. These men and women are impeded by long 
travel distances to medical care and social services. Texas 
Department of Transportation data shows that rural transit 
districts saw an increase of ridership from 2016 to 2017, 
providing about 5.4 million trips Statewide.
    Individually, communities, especially rural ones, have a 
limited capacity and capability to develop and to deploy 
mobility advanced solutions. In Texas, to assist in addressing 
this challenge, the Texas Department of Transportation has 
created the Texas Innovation Alliance. This alliance is a 
network of local, regional, and State agencies and research 
institutions that develop a portfolio of advanced mobility 
projects across the State of Texas, where I'm from. This 
alliance provides a platform for cities and regions to leverage 
resources and expertise to address some of the State's most 
pressing mobility challenges.
    Like the Alliance, I today, too, look forward to hearing 
from our witnesses about the research, development, and 
technology activities being conducted by research institutions 
and the private sector and applied at State and local 
governments. And as a representative of a diverse district with 
both large, small cities, and many rural communities, I also 
hope to hear from our witnesses about how your work can benefit 
both the metropolitan and rural areas and specifically how it 
can best assist these communities for planning and preparing 
for the future.
    I want to thank you all for being here today again, and 
thank you all for being here. We look forward to just an 
awesome conversation. I yield back.
    [The prepared statement of Mr. Cloud follows:]

    Good morning Chairwoman Stevens. I'd like to thank you for 
convening today's hearing and for inviting me to visit 
Michigan's 11th District. It's great to be here.
    I look forward to hearing from our witnesses this morning 
about how communities can, and are, using smart technologies to 
provide safe and efficient mobility solutions.
    All of us on this Committee are aware of the challenges our 
nation is facing with aging infrastructure. To effectively 
address these challenges, we must support and maintain basic 
research to aid and inform our state and local governments as 
they make transportation investments.
    Such fundamental research can also drive innovation that 
yields better and safer commutes for our constituents.
    These technologies, like enhanced safety features in 
vehicles, smart infrastructure, and wireless communication 
between vehicles and infrastructure, benefit folks from rural 
south Texas or the suburbs of Detroit.
    The promise of smart mobility is vast-it has the potential 
to increase safety and save lives, reduce congestion and 
pollution, and save taxpayers' money. However, we must ensure 
that smart mobility technologies also advance a better quality 
of life for all communities.
    Citizens in urban, suburban, and rural communities use 
public transit to go to work or school, keep medical 
appointments, shop and run errands, and travel to recreational 
activities.
    According to the Texas A&M Transportation Institute, the 
rural transit systems in Texas faces an increasing demand from 
a growing population of older and disabled residents impeded by 
long travel distances to medical care and social services. 
Texas Department of Transportation data shows that rural 
transit districts statewide saw an increase in ridership from 
2016 to 2017, providing about 5.4 million trips.
    Individually, communities, especially rural ones, have 
limited capacity and capability to develop and deploy mobility 
advanced solutions.
    In Texas, to assist in addressing this challenge, the Texas 
Department of Transportation has created the "Texas Innovation 
Alliance." It is a network of local, region, and state agencies 
and research institutions that develop, launch and sustain a 
portfolio of advanced mobility projects across Texas. The 
Alliance provides a platform for cities and regions to leverage 
resources and expertise to address some of the state's most 
pressing mobility challenges.
    Like the Alliance, I look forward to hearing from our 
witnesses today about the research, development, and technology 
activities being conducted by federally sponsored research 
institutions and the private sector, and how these advances are 
being utilized by state and local governments.
    As a representative of a primarily rural district, I also 
hope to hear from our witnesses about how your work can be 
beneficial to rural areas and how we can best assist these 
communities for planning and preparing for the future.
    I would like to thank all our witnesses for coming today 
and sharing your thoughts on the future of smart mobility. 
Thank you and I yield back the balance of my time.

    Chairwoman Stevens. Thank you. Well, if there are Members 
who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    [The prepared statement of Chairwoman Johnson follows:]

    I want to thank Chairwoman Stevens for organizing this 
important hearing. As a longtime Member of both the Science, 
Space, and Technology Committee and the Transportation and 
Infrastructure Committee, I have great interest in how 
technologies are being developed and deployed to improve 
mobility, mitigate congestion, and reduce the environmental 
impact of transportation.
    I am from one of the nation's big cities, Dallas, that has 
been investing heavily in both public transit and so-called 
micro-transit options such as scooters and bike shares. Texas 
is known for our love of big cars and we are continuing to 
expand our roadways to accommodate increasing traffic. However, 
we also recognize that we must invest in more comprehensive and 
forwardlooking mobility solutions. According to U.S. Census 
Bureau data, the Dallas-Fort Worth metro area gained more new 
residents in 2018 than any other metro area. As economic 
opportunities continue to expand in Texas, this trend will 
likely continue. We must find new and innovative ways to move 
all of our city's residents around safely, efficiently, and 
quickly, taking into account the unique needs of different 
segments of our population. Moving goods around efficiently 
will also be important to maintaining our economic growth.
    As cities like Dallas continue to experiment with new 
mobility solutions, we must build partnerships with other 
cities to share data and best practices. We must also look to 
our neighbors in less dense communities outside of our city 
limits to ensure connectivity and flow of people and goods 
between the cities and suburbs, and to help share lessons that 
may be applied across diverse communities.
    The suburbs will face their own unique challenges. Most 
suburban communities have limited or no public transit options. 
In many suburban communities, the population is aging, and 
increasingly, those individuals want to age in place. We must 
develop and implement mobility solutions that ensure that 
people who can no longer drive themselves have safe and easy 
transportation to supermarkets, medical appointments, and other 
essential services. In many cases, these solutions will involve 
public-private partnerships, including with ride hail 
companies.
    However, we must proceed with caution. Younger people may 
be perfectly comfortable using a smart phone to order a ride 
and jump in a car with a stranger behind the wheels. Older 
people may be less comfortable with both the technology and the 
idea of getting in an unfamiliar vehicle. Understanding these 
attitudes and receiving community input into the design of new 
mobility solutions will be essential.
    Today's hearing brings together an important and diverse 
set of perspectives from the public sector, the private sector, 
and the research community. This is an important discussion and 
will not be the only hearing this Committee will hold on the 
future of smart cities and communities. I thank the panel for 
contributing their time and expertise to our Committee.

    Chairwoman Stevens. And at this time, I'd also like to 
introduce and recognize our incredible collection of witnesses 
who have joined us here today.
    Our first witness is the Honorable David Coulter. Mr. 
Coulter currently serves as Oakland County's third County 
Executive. He previously represented southeastern Oakland 
County on the Board of Commissioners from 2002 to 2010. During 
the time on the board, he was a member of the Finance 
Committee, which oversaw Oakland County's balanced 3-year 
budget, and he also recently served as the Mayor of Ferndale. 
Mr. Coulter earned a bachelor's degree from Michigan State 
University and an executive education certificate from the John 
F. Kennedy School of Government at Harvard University.
    Our next witness is Mr. Mark Dowd. Mr. Dowd is the Founder 
and Executive Director of Smart Cities Lab, a nonprofit that 
provides a venue for cities to share what works and partner 
with the innovation community to forge new solutions. He is 
also a visiting scholar at the University of California 
Berkeley. He previously served in several roles in the Obama 
Administration, including Senior Advisor in the White House 
Office of Management and Budget, Senior Advisor in the White 
House Council of Environmental Quality, and a member of 
President Obama's Hurricane Sandy Task Force as a senior member 
and also, let us not forget, as a senior member of the 
President's Auto Task Force. Mr. Dowd holds degrees from 
Rutgers College and Seton Hall University School of Law.
    After Mr. Dowd is Dr. Raj Rajkumar. Dr. Rajkumar is the 
Director of the Metro21 Smart Cities Institute, the T-SET 
National USDOT (United States Department of Transportation) 
University Transportation Center for Safety, and Mobility21, a 
USDOT National University Transportation Center for Mobility. 
He is also the George Westinghouse Professor at Carnegie Mellon 
University's (CMU's) Department of Electrical and Computing 
Engineering. Dr. Rajkumar's work is primarily in cyber-physical 
systems such as autonomous driving and vehicle networks. His 
research interests include operating systems, wired/wireless 
networking protocols, model-based design tools, and power 
management. Dr. Rajkumar received his Ph.D. from Carnegie 
Mellon University.
    Our next witness is Dr. Tierra Bills. Dr. Bills is an 
Assistant Professor in the Civil and Environmental Engineering 
Department at Wayne State University. Much of her research 
focuses on investigating the social impacts of transportation 
projects. She develops activity-based travel demand models to 
investigate individual and household-level transportation 
equity effects for the purpose of designing transportation 
systems that will provide more equitable returns to society. 
Dr. Bills holds a bachelor's degree in civil engineering 
technology from Florida A&M University and a master's and Ph.D. 
in civil and environmental engineering from the University of 
California Berkeley, although she is a hometown gal.
    Our final witness is Mr. Scott Averitt. Mr. Averitt works 
in the Corporate Government Affairs Group for Bosch located 
here in southeastern Michigan, where he serves as a technical 
expert and manager focused on advanced R&D (research and 
development) projects, public-private partnerships, and 
government-funded projects. He collaborates across all four of 
Bosch's business sectors, including mobility solutions, 
industrial technology, consumer goods, and energy and building 
technology. Mr. Averitt holds a degree in electrical 
engineering from Lawrence Technological University right here 
in Southfield.
    As our witnesses should know, you will each have 5 minutes 
for your spoken testimony. Your written testimony will be 
included in the record for this hearing. When you have 
completed your spoken testimony, we will begin with questions, 
and each Member will have 5 minutes to question the panel.
    And it should also be recognized that we have a robust 
audience in attendance here today representing the stakeholders 
in southeastern Michigan who are relying on these mobility 
solutions, working on these mobility solutions, and 
proliferating new technologies so that regions like ours will 
lead the world.
    We will start with Mr. Coulter for a 5-minute testimony. 
Mr. Coulter?

              TESTIMONY OF THE HON. DAVID COULTER,

       OAKLAND COUNTY EXECUTIVE, OAKLAND COUNTY, MICHIGAN

    Mr. Coulter. Thank you, and good morning to everyone and 
especially esteemed Members of the Subcommittee on Research and 
Technology. I'm honored to be here and grateful to 
Congresswoman Stevens and her colleagues for the invitation to 
testify on smart mobility.
    As the Congresswoman said, I'm Dave Coulter. I'm the County 
Executive for Oakland County, Michigan, which is the home of 
Fiat Chrysler headquarters and Engineering Center, General 
Motors' Proving Ground, Nissan Research and Development Center, 
and hundreds of suppliers and other companies working on the 
development of smart mobility technologies.
    Oakland County is also home to 1.25 million residents and 
1.14 million registered vehicles. That's about 912 cars for 
every 1,000 residents, which far exceeds the national average. 
We like our cars. The Road Commission for Oakland County, which 
is a separate entity from the county, maintains the largest 
county road system in Michigan.
    Now, in 1967 Oakland County had 6.8 deaths for every 100 
million vehicle miles of travel. Fifty years later in 2017 that 
number was reduced to 0.53 deaths per 100 million vehicle miles 
traveled. It's a huge improvement over 5 decades, but we still 
have a way to go to prevent fatal and injury traffic crashes, 
the barriers to reduce if not outright eliminate traffic 
fatalities. Oakland County believes the solution lies in 
public-private partnerships that will enable cars to utilize 
smart mobility technology to talk to each other and the road 
infrastructure around them.
    Today, I'd like to give you just a brief snapshot of how 
Oakland County is partnering with other governments, 
nonprofits, and private industry to advance smart mobility 
development. Our biggest project to date involves P3 Mobility, 
a Toronto, Ontario-based company, which was selected by Oakland 
County to develop a business plan for a connected vehicle 
infrastructure using smart mobility technology. The contract 
between Oakland County and P3 Mobility was signed on January 23 
of this year. Our partnership with them is launching a pilot to 
use roadside units placed at intersections to test both smart 
mobility technology and multiple revenue-generating 
opportunities.
    Advanced safety technologies provide consumers with 
improved vehicle innovations that save lives. We believe these 
new technologies can eliminate 94 percent of fatal crashes 
involving human error. If a successful business model can be 
developed, this will guide Oakland County in generating revenue 
to offset the cost of the deployment of connected vehicle 
infrastructure to Oakland County's 1,600 signalized 
intersections and create a safer road system.
    This pilot program has explored funding options with 
traditional infrastructure financing entities but has 
experienced resistance. We believe that resistance will 
continue until a State or Federal vehicle safety mandate is 
established and/or the industry further advances smart mobility 
technology to make it more cost-effective.
    There are other smart mobility projects occurring around 
Oakland County. The Michigan Department of Transportation 
(MDOT) is utilizing its modernization of I-75 in Oakland County 
from 8 mile to M-59 to install smart mobility technology 
infrastructure so Congress can receive information about road 
conditions on the freeway, on weather and road conditions, 
backups, curve warnings ahead, and that sort of thing. It's 
worth noting that the auto companies will use this stretch of 
I-75 as a testbed for smart mobility technology.
    Another MDOT smart mobility project that runs through 
Oakland County worthy of mention is roadside units, which will 
be placed up along Woodward Avenue from downtown Detroit to 
Pontiac. These roadside units will make drivers aware of real-
time traffic information, will perform greenlight 
prioritization to move traffic through an intersection, and 
offer a safety message network which will alert drivers to 
traffic threats such as vehicles approaching an intersection at 
a high rate of speed.
    Related smart mobility infrastructure projects by MDOT are 
also either underway or will be in the near future on major 
roads in Oakland County like Telegraph and M-59, I-696, and I-
96, among others.
    So, as you can see, smart mobility is of immeasurable value 
to Oakland County and its businesses and residents because it 
will improve traffic safety and quality of life and attract 
jobs by driving business development. Oakland County is proud 
to be on the leading edge of this development of smart 
technology and will continue to work with our public, private, 
and nonprofit partners to move smart mobility solutions 
forward. Thank you.
    [The prepared statement of Mr. Coulter follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairwoman Stevens. Thank you, Mr. Coulter.
    Mr. Dowd, you now have 5 minutes.

                   TESTIMONY OF MR. MARK DOWD,

                   DIRECTOR, SMART CITIES LAB

    Mr. Dowd. Thank you. Good morning, Chairwoman Stevens, 
Congressman Cloud, and Congressman Foster. My testimony will 
focus on how small towns and suburban communities can begin the 
journey of providing safe and efficient smart mobility 
solutions.
    A little bit about the lab, Smart Cities Lab, it grew out 
of the work I did in the prior Administration. We set up the 
lab as a city-facing organization focusing on helping 
communities, cities, and regions to decipher and engage in 
innovative mobility solutions. The lab is comprised of 12 
cities that have a wide range of population from under 100,000 
people to over 4 million, different growth patterns from dense 
to suburban, and diverse political compositions.
    Our mission is to find ways for cities and communities to 
collaborate with each other and to share what works and, more 
importantly, what doesn't work in the area of smart mobility 
and equity. It is true that smaller communities and cities 
often lack the expertise and capacity to engage in this space, 
but I believe it is only through collaboration with similarly 
situated communities that you'll be able to find the ability to 
engage in smart mobility.
    I wanted to provide some of the best practices that we've 
found over the past 4 years in working with communities, and I 
think there are nine of them. I'll move through them quickly.
    First is resist the pull of the shiny technology-driven 
solution. It's often very hard for communities not to go for 
the thing that looks good instead of going for the thing that 
they need.
    Second and probably most important best practice is 
understanding and defining your community's needs and 
challenges as the first thing you do. It is often to rush 
toward the solution rather than focus on what it is--the 
problem, and then use the technology and innovation to try to 
solve that problem.
    Collaborating and partnering with other local and regional 
universities: The ability to work with universities expands the 
capacities of local communities to be able to do and see much 
more of the opportunity that's out there.
    Conduct deep community engagement. Understanding what your 
community needs rather than guessing what your community needs 
is a critical tool in being able to deploy smart mobility.
    Developing regional and Statewide communities of practice: 
I think that this is an important piece, and I wanted to spend 
2 seconds on this because Congressman Cloud mentioned the Texas 
Innovation Alliance. The lab works directly with the Texas 
Innovation Alliance to develop--we've developed four 
communities of practice. Those four communities of practice, we 
drive--the capacity piece I was talking about that many of the 
communities in Texas and many of the cities and communities 
that I work with don't have the ability to do the things that 
they need to do. They don't have the data scientists. They 
don't have experts like Raj. They don't have them at their 
fingertips. But cities like Pittsburgh work directly with CMU 
to work to try to get that done and then share that knowledge 
with the other cities and the communities of practice.
    Those communities of practice focus on four areas. The four 
areas that we focus on are: Seamless mobility, the ability to 
move seamlessly from one place to the other without having to 
get necessarily in your car. The second piece is real-time 
data. It's often very difficult for communities to both develop 
and then also ingest all that data so they work on that piece. 
Equity and access, it is often very difficult for people who 
are transit-dependent to be able to get to the places where 
they need to get to and being able to get people to work, and 
so we work on equity and access in that space. And last is 
energy and sustainability in trying to deal with the fact that 
transportation is the largest emitter of greenhouse gases in 
our country.
    The sixth best practice is breaking down the silo barriers 
that I'm sure that even the County Executive would agree that 
even within your community that many people work in a vertical 
way rather than a cross-functional way, and once you start 
working cross-functionally, you can actually start breaking 
down some of those barriers.
    Not all private sector companies make good partners. That's 
a very important piece to understand. Obviously Bosch I believe 
is one of those companies that is a good partner. I know that 
our experience in the lab that General Motors has been an 
excellent partner. And then there are other companies who are 
not very good partners. And it's very important for communities 
to understand the difference between those two things. And 
again, to the extent that the company is out there co-creating 
a solution with you as opposed to selling you something, that's 
the better road to go.
    Preparing your workforce for an automated future, that's a 
really important piece that it's hard to do, and the capacity 
within southeast Michigan to be able to prepare your community 
for this with the companies that you have here would rely on 
their expertise and their ability to be able to help you make 
that transition.
    Last one is making transportation affordable. It is really, 
really hard right now for communities that are car-dependent 
for the people who don't have cars, for the people that don't 
necessarily have access to those and they have to take an Uber 
or Lyft, it's $15, $20. It cost me $27 to get here, so 
affordable transportation in rural communities and in suburban 
situations is really important. Thank you very much. I 
appreciate the time.
    [The prepared statement of Mr. Dowd follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairwoman Stevens. Dr. Rajkumar, you now have 5 minutes.

                 TESTIMONY OF DR. RAJ RAJKUMAR,

          DIRECTOR, MOBILITY21, AND GEORGE WESTINGHOUSE

        PROFESSOR OF ELECTRICAL AND COMPUTER ENGINEERING,

                   CARNEGIE MELLON UNIVERSITY

    Dr. Rajkumar. Good morning, Chairwoman Stevens, Congressman 
Foster, and Congressman Cloud. Thank you for this opportunity 
for me to testify before this important hearing today. I am Raj 
Rajkumar from Carnegie Mellon University in Pittsburgh, 
Pennsylvania.
    I want to thank this Committee for its interest in smart 
cities technology. My academic career and success as an 
entrepreneur for AV (autonomous vehicle) technologies have 
benefited directly from funding from the Federal agencies whose 
missions have been shaped by this Committee. These agencies and 
you have helped make possible a revolution in innovation that 
has helped to sustain U.S. economic leadership. I would like to 
acknowledge in particular Mark Dowd's leadership during the 
previous Administration in this regard.
    My testimony today will highlight three key strategic 
elements that are vital to realizing a revolution in smart 
cities and mobility. One, continued U.S. commitment to 
advancing the basic sciences that underpin smart city, smart 
region innovation; two, a focus on integrating research and 
innovation with deployment at the regional level; and three, an 
emphasis on smart city strategies to create a supportive policy 
environment that blends workforce and rural development 
initiatives with innovation.
    Smart city applications depend upon the integration of 
technologies that span the domain of cyber-physical systems. 
Fundamental research on cyber-physical systems, computer 
networking, AI and machine learning, robotics, human-machine 
teaming, cybersecurity, and privacy at NSF (National Science 
Foundation), DOT (Department of Transportation), DOE 
(Department of Energy), DOD (Department of Defense), NASA 
(National Aeronautics and Space Administration), and NIST 
(National Institute of Standards and Technology) will continue 
to be vital to advancing these capabilities.
    This continued support of basic research should also be 
aligned with cross-disciplinary collaboration. Smart city 
innovations involve the science of systems integration. A smart 
city research initiative could include the development of a 
roadmap for filling gaps in the science of systems integration 
and interagency coordination.
    My second key point is that fundamental research in 
enabling technologies needs to be effectively combined with 
application initiatives. At CMU, we refer to this model as 
research development and deployment, RD&D. We engage with local 
governments to identify mission targets, develop projects, and 
pilot solutions that can be scaled once proven successful.
    For example, an initiative to deploy AI-enabled traffic 
signals to improve traffic flow and lower emissions started 
with nine intersections and is now being deployed in cities 
across the Nation. Our follow-on project enables persons with 
disabilities to use smartphones to communicate with traffic 
signals. The system can recognize their presence and 
accommodate their small movements through the intersection, 
giving them confidence that they will have the time to cross 
safely.
    The RD&D model also accelerates the technology transfer 
process. Carnegie Mellon started several startup companies 
emerging from our projects, which are disseminating innovation 
to cities across the Nation and beyond. The RD&D model also 
lends itself to creating networks of communities to share the 
best practices. The MetroLab Network established as a 501(c)(3) 
organization by CMU links together a virtual community of 
government-industry partnerships across the U.S. engaging more 
than 40 cities, 60 universities, and over 100 projects.
    Another model of collaboration produced by Carnegie Mellon 
is the Smart Belt Coalition, an effort across Michigan, Ohio, 
and Pennsylvania to establish a dynamic and proactive 
collaboration that brings together universities, transportation 
authorities, and industry to foster a dialog and undertake 
specific projects that focus on informing the regulatory 
environment for connected and automated vehicles. Therefore, 
new funding that supports smart city initiatives should combine 
basic research with support for deployment initiatives such as 
grand challenges in specific funding areas.
    My third key point is that smart city research initiatives 
should also focus on the effective policy building blocks to 
ensure broad adoption. One essential area is the critical need 
to build the workforce to support smart city development. This 
must include both a focus on specific technical degrees and 
focus on fostering community capacity building.
    Funding research programs that incorporate educational 
components can have a catalytic impact on building the 
technical and community-based talent pipeline that smart city 
innovations depend on. The deployment of smart city innovation 
also creates a very natural pathway to engage communities and 
neighborhoods in STEM (science, technology, engineering, and 
mathematics) education.
    Another major policy challenge that's impacted by the 
design of Federal science policy relates to the critical 
challenge of engaging rural and suburban communities in smart 
city innovations. For example, in the earliest phases of our AI 
traffic signal project, a suburban community was selected for a 
parallel deployment. Two years ago, Mobility21 launched a smart 
city challenge competition targeted to draw in participation 
from outlying suburban and rural communities while the 
competition fostered capacity-building collaboration between 
the university and communities across four neighboring 
counties.
    Recently, with support from the DOE, Carnegie Mellon has 
launched an initiative to develop mobility solutions that 
address problems ranging from job and healthcare access to food 
insecurity in Greene County, a rural county of Pennsylvania 
with a high poverty rate and an elderly population. The 
targeted outcome is the piloting of a Rural County Mobility 
Platform that can be replicated in other counties.
    Federal research agencies can enhance the growth of such 
collaborations in rural areas by incorporating grand challenges 
into Federal smart city research initiatives, as well as 
supporting targeted education and outreach programs that 
incentivize urban, suburban, and rural collaborations. These 
efforts will be enhanced by national networking efforts that 
foster best practice learning, tech transfer, and innovation 
across communities.
    In summary, the work of this Committee and the programs it 
has authorized have led to a technology revolution in 
computing, communications, autonomy, and artificial 
intelligence. The application of these breakthroughs to cyber-
physical systems creates the potential to fundamentally improve 
the economic, social, and environmental fabric of our 
communities.
    By focusing on a three-pronged effort to: A, increase core 
investments in foundational disciplines; B, foster greater 
interagency collaboration to support research, development, and 
deployment; and C, support agency strategies to incorporate 
workforce development and bring urban, suburban, and rural 
communities to collaborate, I believe this Committee and the 
Congress can have a dramatic positive impact on scaling the 
deployment of smart city innovations across America. Thank you.
    [The prepared statement of Dr. Rajkumar follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Chairwoman Stevens. Fabulous, thank you.
    Dr. Bills, I'm going to recognize you for 5 minutes of 
testimony.

                 TESTIMONY OF DR. TIERRA BILLS,

          ASSISTANT PROFESSOR, CIVIL AND ENVIRONMENTAL

              ENGINEERING, COLLEGE OF ENGINEERING,

                     WAYNE STATE UNIVERSITY

    Dr. Bills. Thank you, Chairwoman Stevens and Members of the 
Committee, for inviting me here to testify today. As mentioned 
earlier, I'm an Assistant Professor in civil and environmental 
engineering at Wayne State University, and it is my pleasure to 
share about my current research on smarter transportation 
technologies and their usefulness for addressing transportation 
inequity.
    Much of my current research focuses on investigating the 
social impacts of transportation projects. My latest project, 
for which I'm a co-investigator, is funded by the National 
Science Foundation, and it aims to improve the ability to 
represent the distinct travel needs of transport-disadvantaged 
communities. And this is using mixed modes of sampling and data 
collection. My objective is not only to provide a clear picture 
of how transportation systems affect society but to support a 
design of more sustainable transportation interventions that 
meet the needs of all segments of society.
    As we know, smarter transportation technologies, which 
range from GPS data generation to connected autonomous vehicle 
technology, are transforming our transportation landscape as we 
know it today. These technologies hold the promise of 
significantly reducing traffic incidents and traffic delay and 
enabling new and more far-reaching transportation services in 
terms of ridesharing, shared ridership, and micro-transit.
    However, few research efforts and industry efforts have 
focused on potential benefits and impacts to transportation-
disadvantaged communities, and these are low-income, minority, 
and transit-dependent travelers. And without efforts to 
investigate how well smart transportation solutions and 
connected autonomous vehicle technologies can serve as 
solutions for addressing the broadest set of needs for society, 
we risk excluding those with the greatest transportation needs 
from the vast benefits of smarter transportation technologies 
and potentially reinforcing patterns of decline and 
underemployment for struggling cities across the United States.
    The recent project, the NSF project, is titled ``Data-
Informed Scenario Planning for Mobility Decision-Making in 
Resource-Constrained Communities.'' This is a 4-year research 
effort, and the project is being undertaken by a partnership of 
faculty researchers and students and stakeholders across the 
University of Michigan, Georgia Tech, Wayne State University, 
and Howard University.
    This project is motivated by the need to understand how 
smart mobility solutions can be leveraged to empower community-
based decisionmaking around solutions for these communities. 
The emphasis here is on low-income, resource-constrained 
communities in particular because of the promise of smart 
mobility that can lead to significant gains in quality of 
service delivery, even under resource constraints. The project 
is designed to impart the community with the capacity to define 
and deploy mobility solutions that support greater 
accessibility to employment opportunities, education, and 
health care.
    There are four clear objectives of this project. First is 
to define a cost-effective data-collection strategy that 
assesses the performance of the transit system in Benton 
Harbor, which is where this research is based; track mobility 
patterns of residents; and acquire resident perceptions of 
their mobility. Second is to use that data to collect and 
calibrate analytical models and predict resident demand for 
mobility services. Third is to implement a community-based 
decisionmaking framework based on scenario planning methods and 
smart mobility technologies, data visualization, predictive 
analytics used in the process of predicting these outcomes. And 
finally, to implement a consensus mobility solution and assess 
the impact.
    My primary role in this effort is to design and estimate 
components of what is called a travel demand model, and the key 
here is that individual data collected in order to estimate 
these models represent the travel behaviors of various 
demographics and segments in the community, and therefore, the 
ability to accurately predict travel choices and outcomes for 
all population segments is tied to how well these segments are 
represented in the travel data set and for model estimation.
    So a major contribution of this effort is to define the 
extent to which new data collection methods and novel community 
engagement approaches can improve representation of these 
target groups in our travel demand models. And this is 
essentially a pressing issue with regard to under-resourced 
communities like Benton Harbor.
    So far to date we are 1 year into our project, and our 
survey data collection approach, which is a distinguishing 
factor of our study and travel model development, employs a 
mixture of traditional and electronic survey modes in order to 
achieve a higher representation of transport-disadvantaged 
communities. Prior work that we've done validates the soundness 
of this approach.
    And the focal point of this data collection approach is a 
series of 2-hour survey workshops that provide a personal point 
of contact for survey respondents. In these workshops research 
staff, trained facilitators, are made available to assist the 
participants in completing the activity survey, as well as 
registering for activity survey data collection using GPS.
    To date, we've accomplished a total of four of these data-
collection workshops, and this resulted in a total of 140 
survey respondents. And the most important takeaway here is 
that there are at least 40 percent of our respondents would not 
have been able to participate in these surveys had we not 
offered and emphasized a mixture of data collection efforts. 
Thank you.
    [The prepared statement of Dr. Bills follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairwoman Stevens. Great, thank you.
    Mr. Averitt, we'll recognize you for 5 minutes of 
testimony.

                 TESTIMONY OF MR. SCOTT AVERITT,

         TECHNICAL EXPERT AND MANAGER OF PUBLIC/PRIVATE

                 PARTNERSHIPS, ROBERT BOSCH LLC

    Mr. Averitt. Good morning, Chairwoman Stevens and 
Congressman Cloud and Congressman Foster. Thank you for the 
opportunity to testify before you today.
    As Chairwoman Stevens introduced me, my name is Scott 
Averitt. I work for Bosch here in Farmington Hills as a 
technical expert and manager of public-private partnerships. 
Bosch is a global company with roughly 410,000 employees spread 
across more than 60 countries around the world. We first 
established a presence in the U.S. in 1906 and currently employ 
nearly 35,000 associates in more than 100 locations in North 
America. We have technologies across all four different 
business sectors that are applicable toward smart mobility and 
smart communities.
    Our vision for a smart city is to create an interconnected 
ecosystem that works to optimize performance, increase 
efficiency, and enhance quality of life for all. In order for 
smart community solutions to be successful, they must be borne 
out of people's experiences and needs. Bosch draws upon a user 
experience-driven process to develop our products and services.
    One of the fundamental truths that defines a thriving 
community is the accessibility to safe and efficient mobility. 
For example, our recent grant submission to the U.S. Department 
of Transportation, in partnership with the Michigan Department 
of Transportation, aims to achieve this.
    Through the deployment of Bosch's video-as-a-sensor 
solution, our cameras will increase pedestrian and vehicle 
safety through detection, prioritization, and alerts of 
pedestrians and cyclists. Additional technologies from our 
partners will help to reduce traffic incidents and congestions 
through the use of vehicle-to-vehicle and vehicle-to-
infrastructure communications. The benefits include reduced 
emergency vehicle response times and public transportation on-
time performance.
    Additionally, Bosch cameras will be used to identify wrong-
way drivers. The system will use communications and digital 
signage to send out alerts to the driver and to nearby 
travelers to mitigate risk and save lives. The intelligent 
video analytics embedded in our cameras can also help cities 
with tasks such as curbside management, delivery zone 
violations and availability, parking analytics, and double 
parking detection.
    Bosch has partnered with the Ohio Department of 
Transportation regarding deployment and testing of technologies 
along the U.S. 33 Smart Mobility Corridor. Video analytics are 
being used to generate warnings for cross-traffic, curve speed, 
exit ramp queue, red light violation, work zones, along with 
detection and notifications for pedestrians and wrong-way 
drivers. These technologies are applicable and scalable from 
big cities to small cities to rural communities.
    As part of a recent USDOT grant awarded through the Ohio 
Department of Transportation, Bosch is the technology provider 
on a project that will test and deploy driver assistance 
systems in the form of truck platooning. The technologies to be 
deployed are expected to help cities, suburban areas, and rural 
communities through improved road safety, decreased fuel 
consumption, and improved freight logistics efficiency. Freight 
shipping is essential to the success of many industries. 
Therefore, it is critical that we continue to innovate and 
transform this industry in a sustainable way.
    Personal mobility solutions should be scalable and 
accessible to all. Bosch's eBike system aims to extend cycling 
accessibility to a wider range of commuters. Bosch's pedal 
assist motor drive engages only when pedaling. This enables 
precise assisted speeds of up to 28 miles per hour with hands-
free, no-throttle operation. eBikes essentially flatten hills, 
shorten distances, and provide a viable option to ride for 
those who otherwise could not.
    The Bosch 'n Blue Program has been successfully implemented 
across the country. This program provides specially outfitted 
eBikes to police departments as a trial period to augment their 
mobility fleets. Police departments have praised advantages of 
increased range, higher speeds, and incredible flexibility. 
eBikes are a great way for officers to engage with the 
community while still quickly and safely getting to where they 
are needed.
    Vehicle parking continues to be a challenge for drivers and 
communities alike. Bosch's smart parking solution detects 
parking availability for garages, lots, and on street. The 
camera solution performs dual functionality by providing 
security video and parking spot detection. Parking management 
software and dashboards make it easy to share parking 
availability via signage and customer-specific apps to the 
community. More efficient parking systems help to reduce 
vehicle traffic from circling the block looking for a spot. It 
improves driver experience leading to greater return customers 
and improved parking spot utilization rates.
    Our cameras use onboard intelligent video analytics to 
generate a separate data stream that provides information about 
object identification, classification, and path of motion. This 
method preserves privacy by not sending real live video and 
also reducing the backend communication bandwidth requirements.
    Thank you for your time today, and I----
    Chairwoman Stevens. Thank you.
    Mr. Averitt [continuing]. Am looking forward to answering 
questions.
    [The prepared statement of Mr. Averitt follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Chairwoman Stevens. Excellent. Well, at this point we're 
going to begin our first round of questions from the Members of 
Congress here today. And the Chair is going to recognize 
herself for 5 minutes.
    And thank you for this round of testimony. This is nuanced 
and technical, and we often say that the devil's in the 
details. Well, my takeaway is the devil's in the data and how 
we're recognizing working with the data and capturing it. And 
we certainly have infinite opportunity to capture data this day 
and age, the rate at which we are collecting, and certainly 
appreciate the nod to the role that this Committee plays in 
catalyzing and transforming technology opportunities, mobility 
solutions, the ``if not but for'' principle of where the 
Federal Government comes in as an effective partner.
    We learned from the FAST Act, the most recent surface 
transportation law that Congress authorized funding for a 
number of programs focuses on improving mobility, but yet 
there's still some aching for R&D dollars. And I'm grateful to 
each one of you if you don't mind to just chime in on your view 
of the Federal role in supporting research and development in 
the deployment of smart mobility technologies across this 
country, particularly including small cities and communities.
    And then also let's take it down just one more notch and 
look at how the Federal Government balances long-term research 
needs with short-term deployment and testing activities.
    And, Mr. Coulter, if you don't mind, I'd love to start with 
you.
    Mr. Coulter. Yes. So thank you. So, as I mentioned, in our 
pilot program, the traditional funding options are not 
sufficient to allow us to pursue it, and so, as I mentioned, 
either through grants and R&D at the Federal level or stricter 
vehicle safety mandates or whatever it takes to help to make 
the technology more cost-effective because the technology is 
there, but the cost is still a barrier. And so if we can use 
R&D for that or those mandates, that would be very helpful.
    Chairwoman Stevens. Unlocking barriers indeed.
    Mr. Coulter. Indeed.
    Chairwoman Stevens. Mr. Dowd, I know you have some 
firsthand experience with----
    Mr. Dowd. I do have----
    Chairwoman Stevens [continuing]. Federal R&D dollars----
    Mr. Dowd. I have strong views in this space. The current 
rate in which communities and universities are being funded 
right now on mobility is not good. There was a $60 million ADS 
(automated driving system) grant that was put out by USDOT. It 
was way short in terms of the amount of money. In Texas there 
were two excellent applications that were submitted, no funding 
for Texas at all. Virginia, you got two--it's unfortunate with 
automation as being the forefront of where we're going that we 
don't have enough money in the system.
    Chairwoman Stevens. Yes. Yes.
    Mr. Dowd. The National Science Foundation on the other hand 
has been great in terms of--they have the smart and connected 
communities. They have a $43 million grant program with us 
that's out right now to help communities and universities work 
together to try to solve mobility solutions.
    Chairwoman Stevens. Yes. And we here in Michigan recognize 
how much we are doing with so little, and we're doing it almost 
at the expense of not having----
    Mr. Dowd. I'd like to point out, though, Detroit did win an 
ADS grant this year.
    Chairwoman Stevens. Yes. We'll take all the grants we can 
get. Go ahead, Dr. Rajkumar.
    Dr. Rajkumar. Sure. Just part of that, the smart mobility 
market, if you will, is supposed to become a multitrillion 
dollar market in the future per year.
    Chairwoman Stevens. Yes.
    Dr. Rajkumar With a ``T'', right?
    Chairwoman Stevens. Yes.
    Dr. Rajkumar. And part of that is actually global 
competition with China in particular emerging as a very 
competitive rival. So I think in the U.S. we should continue to 
be investing substantial dollars above the budgets that we 
currently have to enable our leadership, which will also not 
just have a technological implication but an economic 
implication down the road.
    Chairwoman Stevens. Yes.
    Dr. Bills. One thing I'll say is that transportation is one 
of those types of services that really requires the Federal 
Government to lead. A lot of large-scale implementations just 
won't happen without the leadership and funding and support 
from the Federal Government.
    And so I think that one important thing is to really set 
priorities for incorporating more smart mobility and making 
sure that we're doing that in such a way that the most 
disadvantaged communities are not left behind. So the extent 
that the Federal Government can serve as a catalyst for 
bringing together efforts from research, from industry, and 
from the public sector and mandating that there is clear 
consideration for the broadest set of transportation needs, I 
think that that's something that's very important for the 
Federal Government to lead in.
    Chairwoman Stevens. The deployment, yes. And our private 
sector partner, please tell us.
    Mr. Averitt. So, yes, I mean, it's actually very critical 
in that respect from a funding perspective. It provides an 
opportunity that otherwise wouldn't exist with industry. For 
example, we recently partnered for an ATCMTD (Advanced 
Transportation and Congestion Management Technologies 
Deployment) grant, which is the short name of what you 
pronounced earlier, for going along the Woodward corridor to 
put in pedestrian detection and those types of systems.
    And those technologies exist, right, but getting them 
deployed out into the community and seeing how well they really 
work and how do they really impact the community around them, 
you know, it allowed us for that--we partnered with Wayne State 
to be able to--after the point go and take a look and see how 
well did it really work, to reach out to the community and see 
was it effective, how was it perceived, right? So beyond just 
deploying it, that's one thing. You actually got to make sure 
that it's doing what it's supposed to do, and that's where the 
grants really come into play in that respect.
    Chairwoman Stevens. Well, and with the remainder of my 
time, the elephant in the room also appears to be productivity. 
You know, productivity is either going to decline or increase, 
and inequality might rise. These technologies not only have the 
ability to save lives and grow our regional economy, they have 
the ability to create jobs. And I was just wondering if you can 
touch base a little bit on the economic development opportunity 
of smart mobility strategies.
    Dr. Rajkumar, go ahead.
    Dr. Rajkumar. The average American commutes for about 51 
minutes per day to and from work, right? And most vehicles have 
a single passenger in them who's driving. If the vehicle can 
drive itself, a significant portion of those 51 minutes can be 
turned into productive work, so it can have a qualitative 
impact on productivity.
    But in regard to transportation jobs, I think there's a lot 
of fear about driving jobs going away. Luckily, full automation 
is many years away, but it will happen at some point in time. 
If we worry about loss of jobs and not using the technology, 
countries like China will take on the leadership and the jobs 
will go away anyway, and we will have lost the technology 
leadership as well, right? What we need--you mentioned the 
technology, sustained and extended leadership and actually 
putting programs in place to basically retrain workers to help 
them garner even higher-paying jobs fixing these higher tech 
systems and maintaining those systems.
    Chairwoman Stevens. Mr. Dowd, did you want to chime in?
    Mr. Dowd. Sure. Again, getting back to the ability for the 
Federal Government to provide that seed money to create jobs is 
a critical part, particularly in transportation. We have such 
an impressive transportation sector, but we aren't always on 
the forefront of developing what those new technologies are. If 
we had more grant money along that way, I think that we could 
create jobs around these spaces.
    Chairwoman Stevens. Yes. Well, it's certainly something we 
here in Michigan know very well. And one of the joys of my job 
is boasting about my region and the rate at which we are 
proliferating technologies and innovations that scale and the 
jobs that depend on it, but they need to be deployed. And it 
can't just be, to Dr. Bills' point, for one community over 
another. It needs to be equitable, so with that, I'm going to 
yield back the remainder of my time and recognize my colleague 
from Texas, Mr. Cloud, for 5 minutes of questioning.
    Mr. Cloud. Well, thank you Chairwoman Stevens. Again, it's 
really great to be here. I am from the Gulf Coast of Texas. My 
district includes Corpus Christi. I live in the town of 
Victoria that's a little smaller than this, and then the rest 
of it's agriculture. And so it's a pretty interesting and 
diverse district.
    I have to say driving in here it was nice to see colored 
leaves on the trees, so I appreciate the Midwest in the fall. 
It's a nice treat. We don't get that very often in south Texas, 
we have about 2 weeks of winter.
    Mr. Foster. Will the gentleman yield? Do you have trees at 
all in southeast----
    Mr. Cloud. We do have trees. They go from green to no 
leaves in 2 weeks and then start over. But yes, it's really 
good to be here. I appreciate it.
    Dr. Rajkumar, I want to start with you. I understand that a 
team from Metro21 worked with the Department of Energy to 
examine how communities in southwestern Pennsylvania can 
utilize these modern innovations in transportation to improve 
rural mobility. That's extremely important where I come from. 
Could you talk a little bit about your work and how the lessons 
learned from that research could be used in developing modern 
rural mobility plans across the country?
    Dr. Rajkumar. Very early in that particular process, 
several factoids. Greene County that we are working with is 
probably the poorest county in Pennsylvania, part of the tri-
State region. Luckily, they actually have a home university 
called Waynesburg University, which is located there, as being 
a huge educational force if you will for the local population 
so I guess, unfortunately, it's very rural, economically not 
doing well, but we actually have this brain fuel right at the 
center. So we are working very closely with the President of 
Waynesburg University to brainstorm and discuss educational 
programs, number one; number two, try to define innovation 
projects if you will that they can start engaging the community 
in.
    So we're looking at multiple aspects if you will, looking 
at how we can bring to bear public transit aspects, subsidize 
ridesharing, micro-transit, looking at AV shuttles if you will, 
looking at whether we can bring in electrification of vehicles 
into the picture and so on. So all of this is ongoing.
    So forming relationships between faculty of both 
universities, engage with communities in both locations and see 
what technologies can be applied. We think incentives would 
make a big difference and policies would make a difference.
    Mr. Cloud. OK. Anyone else have examples of projects that 
are being implemented in rural communities specifically or some 
successes maybe that we're making, where we are in advancing 
projects in----
    Dr. Rajkumar. It is a challenge in the following sense. I 
like to draw the analogy with going back to the 1930s when 
electrification of rural communities was happening. The private 
energy companies were not interested in basically deploying 
electrification because the population was sparse and the 
expenses were heavy.
    Mr. Cloud. Right.
    Dr. Rajkumar. So basically we had to revisit some of the 
experiences of the past and try to repeat it for technology and 
mobility as well.
    Mr. Cloud. OK. Our district, too, is an export district, so 
we have energy assets, and then we have farming communities. 
Everyone's trying to get their products, so freight becomes a 
big deal. Could you speak to any developments that are 
happening along the lines of freight transportation, what can 
we do to help promote the development of these technologies as 
it regards to trade in----
    Dr. Rajkumar. So automation of freight vehicles of course 
would be a big application that can drive this forward. Driving 
on highways actually turns out to be a very monotonous job if 
you will, and then the truck drivers basically have to travel 
very far from their homes for long distances, and they are 
limited to driving 11 hours a day.
    In terms of the vehicle that can drive itself, it can drive 
23 hours a day, right, and be safer as well. And that in turn 
can actually be coupled with humans actually driving in urban 
contexts and dense contexts and so on, so I think that 
technology frontier I think needs further investments.
    Mr. Cloud. Anyone else want----
    Mr. Dowd. So I would----
    Mr. Cloud. Yes.
    Mr. Dowd [continuing]. Just like to echo the fact that 
automation--often we talk about moving people, but because of 
the way that it's not developing as quick as everybody thought 
it would be, but in terms of moving goods, it is actually much 
more capable because there's less opportunity for people to get 
hurt. So that's a space where additional investment would be 
very helpful.
    Mr. Averitt. There's also the possibility with automation 
to shift driving of freight to off-hours so that you're not, 
you know, in the middle of traffic jams and things of that 
nature, so you can actually better manage your infrastructure 
and you're not jamming it up with a bunch of freight in the 
middle of the day. Those are----
    Mr. Cloud. That's a good point. Any other thoughts?
    Mr. Averitt. The other thing--we have this project that 
we've got with Ohio Department of Transportation, which I 
mentioned in my testimony that's looking at truck platooning. 
And it's mostly looking at like driver-assistance features, 
right? Again, how do you make it easier for those 11 hours a 
day so that the truck driver is not, you know, having issues 
with that or they've got a little bit of an easier job. That's 
one of the things.
    The other thing is like I mentioned about doing 24 hours 
and stuff of that nature where you can actually still have a 
driver in the truck, but they're following behind other ones so 
that when they get off the freeway, they can manage from that 
location. So there's lots of different things you can do in 
automation with trucking to really get you to those points.
    Dr. Rajkumar. Technology could also help in pooling to get 
the demand from multiple smaller producers if you will, that if 
they're able to get together to a virtual market if you will, 
they can pool their demand and basically one freight vehicle 
can actually supplement all those demands, so it's basically 
about pooling of your shipping requirements.
    Mr. Cloud. Right. Right.
    Mr. Dowd. I also would like to point out that in rural 
communities there is a spatial mismatch oftentimes between 
where people live and where things are, right? And so drone 
delivery is currently not--you can't realize it the way it 
should be realized right now because of FAA (Federal Aviation 
Administration) regulations, but the ability to get medication 
to people in rural places could--be able to get them even 
doctor's care through the doctor--basically bringing the camera 
to the people and having them have--so there are many 
opportunities to be able to explore some of those opportunities 
that hasn't been fully realized yet.
    Mr. Cloud. Yes, thank you. I have a lot more, but my----
    Chairwoman Stevens. Yes, excellent.
    Mr. Cloud [continuing]. Time's up, so----
    Chairwoman Stevens. Excellent. But the Chair will now 
recognize Mr. Foster for 5 minutes of questions.
    Mr. Foster. Thank you, Chairwoman. And I want to thank you 
for having this hearing.
    You know, I'm Congressman Bill Foster. I represent the 11th 
District of Illinois in the suburbs of Chicago. I sometimes 
introduce myself as saying I represent 100 percent of the 
strategic reserve of physicists in the U.S. Congress. I'm the 
only Ph.D. physicist in the place.
    I'm also a manufacturer. When I was 19 years old, my little 
brother and I started a company in our basement that now 
manufactures about 70 percent of the theater lighting equipment 
in the United States. And so we do hardware, software, you 
know, sheet metal painting, and we've kept all those 
manufacturing jobs in the Midwest, which is something I'm 
really proud of.
    And so I'd like to, you know, congratulate Chairwoman 
Stevens again for having this hearing really in the heart of 
auto component manufacturing because when the revolutions that 
we're seeing and we're going to be seeing in automotive are 
going to have a big impact on the parts that go into cars, and 
so it's really appropriate and good that the technology is 
talked about and developed so close to the manufacturing 
centers here.
    Now, my question really has to do with the timescales. 
There's sort of three simultaneous revolutions we're talking 
about. There's electric cars and trucks, there is self-driving 
cars and trucks, and then there's smart roadways and 
infrastructure. And so if the panel could just sort of comment 
on when they see, say, the 50 percent adoption point for each 
of those, for both cars and trucks and it's those three 
technologies: Electric, self-driving, and then smart roadways.
    Dr. Rajkumar. Sure. I guess if you look at the numbers, 
Congressman Foster, we have 350 million registered cars in the 
U.S. today, and we sell about 80 million cars, right, in a very 
good year, right? So basically then the average age of a 
vehicle registered is about 11 years. If you do the math, if 
all the vehicles are being sold every year become automated, 
connected, electric, it would still take about 15 years, right? 
Of course, it's going to be a long time before all the vehicles 
being sold in a given year has those capabilities, so we are 
talking about at least a few decades for us to reach a 50 
percent threshold if you will.
    Mr. Foster. So there's a difference--there's 50 percent of 
new cars being manufactured, which will happen much before----
    Dr. Rajkumar. Right.
    Mr. Foster [continuing]. The 50 percent of the cars on the 
road, and so I was more interested in where we hit the 50 
percent of cars being manufactured----
    Dr. Rajkumar. Oh, sure.
    Mr. Foster [continuing]. Say, electric----
    Dr. Rajkumar. Yes.
    Mr. Foster [continuing]. Self-driving----
    Dr. Rajkumar. Yes.
    Mr. Foster [continuing]. Or so on.
    Dr. Rajkumar. So studies indicate that if--even about 8 
percent of the vehicles on the road basically have these safety 
features, the connectivity features, that's actually a very big 
positive impact if you will. So basically really if you do the 
numbers in terms of that, the next 10 years or so we will 
likely reach that 8 percent, 50 percent threshold within the 
next decade.
    Mr. Foster. All right. Other comments or estimates on that 
on--Mr. Averitt?
    Mr. Averitt. In terms of time, I couldn't say. I can tell 
you one of the things that in order to get there is we need to 
get to cost neutrality with existing vehicles, right? It's one 
thing to, you know, have the technologies available and on the 
market. It's another thing for it to be affordable, and those 
are things that we're striving for with the OEMs (original 
equipment manufacturers), be able to get those prices down 
where it's, again, cost-competitive with existing technologies 
on the road.
    So that's something that it's a few years out at least 
before you get to that point. There's a lot of work going in 
R&D to get to those points, especially in battery research and 
electrification. There's a lot of other research going on in 
the areas of automated vehicles. But it's still early yet for 
those things. There's a lot of extra hardware and sensors and 
so forth that need to be added to a vehicle to make that 
happen, so it's a few years off before we get to neutrality.
    Mr. Dowd. I would also like to--on automation I think maybe 
you were thinking about things linearly, right? You know, when 
is that 50 percent going to hit when automation may actually 
come to us in a different way. The idea that we'll have car 
lots with automated cars I think is less likely than us 
changing our mobility choices to include automated 
transportation. So it's not that you're going to go buy an 
automated car, but you can actually use an automated car. So I 
don't think--the 50 percent piece may not really actually be 
applicable in that space. I think we'll actually be changing a 
little bit of how we consume cars.
    Mr. Foster. Well, I was just struck by--I believe that 
Tesla is claiming they're going to deliver full autonomy next 
year, OK, there's a pretty wide spread in opinions on when this 
might actually happen. And it must matter tremendously to 
industry trying to plan for the transition----
    Mr. Dowd. What's fascinating, though, is that the other 
automated car companies aren't even close to that, so is it 
that Tesla is so far advanced and so far beyond Waymo and 
Cruise and like--is that the case, or is it that they define 
automation differently? So if Google Waymo is out there still 
testing their cars in Arizona because it's flat and it's dry, 
they haven't quite gotten to Michigan yet or--you know, how is 
that possible that Tesla is able to magically come up with an 
automated car?
    Mr. Foster. Well, I guess time will--yes.
    Dr. Bills. So I unfortunately don't have an exact answer to 
the 50 percent market penetration question, but one thing I 
think it's tied to is, you know, the network of places where 
people might refuel. And so we have this, you know, rich 
network of fuel stations for gasoline. We don't see many 
fueling stations for electrical vehicles. And so, you know, the 
extent to which that becomes more of a publicly aware or 
incentivized thing on the business side, I think that we'll see 
a lot more people seeing the benefits of electrical vehicles 
and seeing it as a real option for them and purchasing. So 
that's what I want to add.
    Mr. Foster. Yes, and I have to say that from my time living 
in Ypsilanti, I had this nightmare of what happens at a 
University of Michigan football game when 100,000 people drive 
in, discharge their batteries, then the game's over and they 
all have to find a charging station.
    Mr. Averitt. To that point, just some quick math, 1 
percent--if you take a million electric vehicles and you put 
them on the grid to charge, it's about 2 percent of our grid's 
capacity. Now you do that at 10 million vehicles, now you're at 
20 percent. You get to the 450 million, and, yes, they're not 
all charging the same time, but you've quickly exceeded the 
grid's capacity very easily. So there's a lot that has to be 
done on both sides of it. It can't just be the vehicle side of 
it. You actually have to do a lot on the grid side as well.
    Mr. Foster. Yes. Would you anticipate they'll be around 
when you have self-driving internal combustion cars and trucks 
as a significant component just because of the difficulties in 
getting the electric infrastructure?
    Mr. Averitt. I think there's going to be a mix. I think one 
of the things we've seen is that a lot of things is they're 
rolling out new technologies. They tend to roll out the newest 
stuff on the latest vehicles, right? So a lot of the fully 
automated stuff will wind up on the higher-end electric 
vehicles at the very beginning as they deploy technologies. 
Again, as it matures and as the costs come down, you'll start 
to see it more on mainstream vehicles.
    But there is the point that Bill brought up about there is 
the possibility there's a massive shift in the way we have 
vehicle ownership, right, in terms of, you know, where we have 
that 450 million or if you have a lot of automated vehicles, is 
it a matter of, you know, you click a button on your smartphone 
and it just comes pick you up and you go where you need to be 
and you don't actually own the car anymore. And that might 
change the ownership model dramatically, as well as the need 
for how many would charge and so forth. So there's a lot of 
things that are being looked at by industry as well.
    Dr. Rajkumar. Electrical vehicles do have fewer moving 
parts, and the cost of batteries is dropping significantly. At 
some point it would not make economic sense to basically buy an 
internal combustion engine car. So the transformation could be 
abrupt.
    Mr. Foster. Yes. Now, I've seen--someone says--some others 
2 or--2 to 3 years with a crossover--with a total cost of 
ownership will be lower for an electric car----
    Mr. Averitt. That----
    Mr. Foster [continuing]. Because batteries are just 
dropping like----
    Mr. Averitt. Yes.
    Mr. Foster [continuing]. A rock.
    Mr. Averitt. That's very much the case, yes.
    Mr. Foster. All right. I yield back.
    Chairwoman Stevens. Thank you. We are going to do one more 
round of questions, so the Chair is going to recognize herself 
for another round of questions. And actually just picking back 
up on that, you know, we just talked about the need to invest 
in the R&D and how we define deployment and the role that the 
government plays in helping us hit some of these goals. You 
know, the question is, is this all incumbent on industry to hit 
the electric vehicle considerations. We're working on the 
electric vehicle tax credit up from 200,000 vehicles per year 
to 600,000, recognizing that that also helps us hit 
sustainability goals as far as where industry is moving.
    And, Mr. Coulter, I'd like to ask you because you tend to 
have some really great examples of public-private partnerships 
and models that are working at the county level in one of 
Michigan's largest counties, so I'd love for you to kind of 
chime in on ways in which government, be it, you know, at the 
county level maybe reaching for Federal or State Government in 
partnership with industry.
    Mr. Coulter. Yes, it's true. We're very active in that 
space. The one piece that strikes me because I believe it was 
Raj who mentioned the talent pipeline, and that's something 
that we're really concerned about in Oakland County, making 
sure that we have, you know, the workforce that's going to be 
able to deploy this technology and do this. And we've been 
partnering with Lawrence Technological University and Oakland 
University, but I think that's a bigger issue than a local 
government can manage, and so making sure that we have the 
talent to be able to bring this to market is going to be really 
critical for us.
    Chairwoman Stevens. I'm looking at Dr. Bills because it's 
becoming a chicken-and-egg question----
    Dr. Bills. It is.
    Chairwoman Stevens [continuing]. Around equity and, you 
know, accessing jobs and then being able to do the job. And if 
it's transportation, accessibility, and throughout that 
spectrum.
    Dr. Bills. Absolutely. I mean, you know, mobility is a huge 
issue for a lot of people, so there are many residents in the 
area who really struggle to access the opportunities that are 
available. And we have public transportation, but they are 
still not quite providing the level of coverage and the level 
of reliability that is required to maintain employment and 
maintain visits to healthcare facilities, which obviously has 
implications in terms of healthcare outcomes and the ability to 
contribute to the economy.
    And as you mentioned, there's a real chicken-and-egg sort 
of dynamic going on here where we're trying to provide people 
with the services so that they can reach opportunities, and 
we're trying to do that in a way that leverages the 
technologies that are coming online. And yes, so that's one of 
the----
    Chairwoman Stevens. Well, and it's going to be intentional 
development of the strategies, and that's I think, again, in 
part to a nod to our audience and the extensive outreach that 
we did for today's hearing, right? This is about establishing 
legislation, enhancing legislation for the best outcomes for 
our country and obviously for our community. And you've got to 
have all stakeholders to the table while you're doing it. You 
can't just add them in down the road.
    This is, again, Mr. Dowd, things that you worked on when 
you were serving in the Obama Administration and bringing, you 
know, partnerships together. It didn't all just come at the end 
when the money was awarded as, you know, on the smart cities 
projects. It's got to be a part of applications. It's got to be 
a part of the approaches.
    And with my remaining time, Mr. Averitt, you mentioned in 
your testimony--you talked about this, how Bosch is deploying 
video and sensor, you know, solutions to increase pedestrian 
and vehicle safety. Could you just elaborate on Bosch's privacy 
and cybersecurity plan for deployment of this technology? Also 
kind of hanging above this conversation on smart mobility, the 
big question that everyone likes to ask is, what are the 
cybersecurity implications of this, and can we hack cars and 
hack into consumer activity?
    Mr. Averitt. Yes, certainly, and that's one of the very key 
points about those technologies is that, again, you know, with 
these things, we've got connected vehicles as well, right? It's 
great if it's connected, you can do all this stuff, but if 
somebody else can track it in a nefarious way, that's not a 
good thing, right? So there's a lot of things you've got to do 
from a cybersecurity and a privacy perspective.
    So when it comes to the video as a sensor, one of the 
things that we do is we decouple the video feed from what we 
would consider the data stream or the object identification, so 
there's a separate data stream that comes out, that that's what 
you use in the intelligent transportation system, so it says 
there's an object here, there's a car, there's a pedestrian, 
there's a cyclist. There's no identification of the person, 
there's no facial recognition, there's no image of the face 
whatsoever. It's just there's a person and that they're there 
or how many of them are there or they're in the cross-section, 
you know, there's this many vehicles at an intersection. So 
it's very much decoupled from, you know, what you would think 
of video cameras doing, right?
    And then everything else from that side in terms of the 
actual video stream, those are accessible for, you know, police 
and fire to be able to do post-accident investigation or, you 
know, something of that nature, but those are all, you know, 
kept behind firewalls. They're all part of the networks that 
have put in place, and there's very high levels of 
cybersecurity and other information that tries to keep that 
protected.
    Obviously, that's an ever-changing thing, so you always 
have to make it updatable and fixable so that you continue to 
morph with the threats that are out there, so that's something 
that we do continuously.
    Chairwoman Stevens. Yes. Dr. Rajkumar?
    Dr. Rajkumar. Two points. The car makers are very sensitive 
to this need for cybersecurity, so they anticipate needing to 
spend extra time and effort on basically making sure that these 
vehicles are secure. They did not have to do that before. They 
did not worry about it before, but now they are.
    Second, this is really a pre-competitive issue if you will, 
so they're absolutely working with each other to make sure that 
they understand the best technologies out there so that all 
these technologies are secure.
    Chairwoman Stevens. Yes. And I think it's also about 
defining it for the public, and that's part of the Committee's 
responsibility as we talk about definitions, you know, how do 
we define autonomous vehicles, how do we define cybersecurity 
standards. We have oversight of the National Science 
Foundation, as well as the National Institute of Standards and 
Technologies, and these standards become imperative for us as 
we move forward and, you know, and again the plight for data 
but data at what cost and for what outcome, you know, certainly 
one of the means to the end but the empirical experience also 
moves us forward.
    I'm out of time, so I'm going to yield back and now 
recognize my colleague from Texas again for another round of 
questions.
    Mr. Cloud. Thank you. This is a great conversation, and I 
have enough questions we could probably go on for a few more 
hours.
    But I'm trying to put this into context of what we're going 
to have to deal with. We're in a competitive environment. You 
mentioned the global competitive environment. Could you all 
speak to the context of where we are in relation to other 
countries in developing these? I know there's some very 
specific challenges in the sense of we care about data security 
and especially privacy in a way that some of our competing 
countries, they can mass collect and force collect data on 
every individual, and when it comes to developing these 
technologies, machine learning, AI, and how that all integrates 
into this picture.
    And then speak to how the phases you see us walking 
through, I guess, from a technological engineering standpoint. 
Mr. Dowd, you commented on how the FAA regulations are more 
what's holding up as much as Congress can sometimes move slow. 
I don't know if you all have heard that before.
    Mr. Foster. Just the Senate, just the Senate.
    Mr. Cloud. Just the Senate. Unanimous----
    Mr. Foster. Or at least two out of three----
    Chairwoman Stevens. Yes, we don't like----
    Mr. Cloud. So, you know, one of the things I think we're 
trying to keep in mind as policy is to make sure that the 
legislative path keeps up with the engineering science track 
that's happening in the sense of, OK, what's the outlook for 
the next phases of development, but then, legislatively, what's 
the next legislative phase of development that needs to happen, 
maybe regulations that are in the way that need to be looked 
at, the next steps of laws, you know, just what's the track 
forward for that in your mind?
    Dr. Rajkumar. If I may, Congressman Cloud, it's a huge 
market, multitrillion dollars per year in the smart mobility 
space. The technology for our automated vehicles, and 
connectivity if you will was literally born in the U.S., and so 
we started out as leaders. It's not going to be an easy task 
maintaining that leadership or extending that leadership would 
require substantial investments, I believe, if we're going back 
to the areas that we discussed earlier. A lot more money needs 
to be invested in. To build us a huge market, we need to 
continue to maintain that leadership.
    It has become a global race. It's not just the U.S. in the 
race. It's Europe, or Germany in particular, and then in Asia 
it's actually China, Japan, and Korea if you will. So it's a 
global competition. We need to be investing resources now to 
keep things moving forward in our country.
    The regulatory aspect I think is a very sensitive topic if 
you will. Regulations may be needed, but if we overregulate 
compared to other countries where the regulation is less, they 
may actually end up taking leadership where they're able to 
test things on their own very quickly and then get that 
technology to mature.
    That being said, I think our local companies need to 
basically have responsibility, so while it needs to be 
regulated, I do believe that it needs to be regulated lightly 
to ensure that the companies are acting responsibly.
    I guess in the United States I think they're doing pretty 
well in terms of the technologies inside the vehicle, but 
what's happening, infrastructure--I'm actually afraid that we 
may be lagging a bit. There's a lot of, I guess, controversy if 
you will in terms of infrastructure investments and the 
frequency spectrum allocation and such if you will. And I'm 
afraid that at this point in time China has basically picked a 
horse to bet on, and they're actually going forward very 
strongly, so we need to be very sensitive to that particular 
dimension of connectivity. So I'm just worried on that front.
    Mr. Averitt. As a global supplier for these technologies, 
we are implementing them across the world, right, in all the 
countries around the world. I wouldn't say that anyone of them 
has more deployments than another at this point. I think one 
point that I could mention is that being a global company we 
can put our centers of competency anywhere, right, but we have 
a very large presence here in metro Detroit area. We also have 
a very large presence now near Carnegie Mellon for our Bosch 
artificial intelligence, and that's primarily because that's 
where the talent is coming from, right? It's coming out of the 
universities, and that's a big factor in developing and 
deploying these technologies is we need engineers. We need 
software engineers. The last numbers I heard is there's 
something like a couple hundred thousand open software 
positions in this country, and we just simply can't find enough 
to fill those voids. It's a major hurdle toward, you know, 
getting to the next level of these technologies.
    Mr. Dowd. I would like to just build on--the university 
system is by far one of our best assets in this----
    Mr. Cloud. Yes.
    Mr. Dowd [continuing]. In this race. And the ability for 
universities to work with companies and universities working 
with communities is where I would push. So there is--the 
partnership between universities and--like Metro21, the 
university and the city allows both the city to increase its 
capacity and allows the university to have a living lab to be 
able to test out different technologies. And being able to see 
that type of--with, you know, National Science Foundation, DOT, 
DOE, DHS all have those types of programs, and being able to 
get them to try to work better together would be one suggestion 
I would have is that they all work independently.
    I personally am trying to get them to work together, all 
three, DOE, DHS (Department of Homeland Security), and DOT, but 
it's hard. And it's hard because they just don't do that well. 
So from a congressional perspective, that would be one 
suggestion. Like FAA should be working very closely with DHS on 
drones. And, you can give multiple examples of how this can be 
done better.
    The second thing is I think that from a regulatory 
perspective on automated vehicles, we're in a weird space. It's 
a weird space. You look at Texas versus California in terms of 
how those two States regulate automated vehicles. You look at 
the way that the Department of Transportation is putting out 
their guidance, and it gets to be a confusing space. And I 
think if there was some clarity in that space, that would be 
very helpful.
    Last, on the ADS piece--I'm just going to hit that again--
$60 million was a drop in the bucket to what the DOT should be 
doing in terms of trying to drive that because, again, that's 
universities and communities working together to try to get 
that grant money.
    Dr. Bills. I want to bring up the topic of micro-transit. 
This is a type of smart mobility technology that is a mixture 
between traditional bus transit and your Ubers and your Lyfts. 
It's more of an on-demand service, and it helps for providing 
greater accessibility to areas that don't have very dense 
transit networks. This is a type of mobility service that we 
see more prevalent abroad than we do in the United States.
    We have had efforts here by industry, so we've had Ford's 
Chariot, we've had BRIDGE. A lot of these have gone away, but 
they still exist in other countries, in the U.K., in China. And 
I think that one of the major issues with it being successful 
here in the United States is that we haven't gotten the right 
cost structure together. A lot of the efforts that we do see 
that are collaborations between the public sector and pilots 
and things like that, they have largely just been funded, and 
the costs are paid for and this is piloted out to the 
community, but we haven't looked at how we come up with a cost 
structure to make this more sustainable. How do we come up with 
the right mix of city and county and government incentives and 
farebox contributions to make this type of transit work? We 
know that it will provide for greater accessibility in areas 
that don't have heavy public transportation investment. And so 
this is one of the things that I would highlight is that we 
need to focus on how we can make these more sustainable from a 
cost perspective.
    Chairwoman Stevens. Great. All right. Dr. Foster?
    Yes. Dr. Foster.
    Mr. Foster. Well, thank you. Dr. Bills, I'd like to pick up 
on that point. You know, there are a variety of ways in which 
we try to provide assistance to under-resourced communities, 
you know, housing assistance, food assistance, and 
transportation assistance seems like a real possibility here, 
you know? The dream that there will be transportation as a 
service, where you just have essentially automated Ubers. And 
when you think about the $27 that it cost Mr. Dowd to come 
here, probably more than half of that was labor that will 
disappear. The capital costs of an automated Uber will be 
amortized much more quickly because it's used a much higher 
fraction of the time than a normal car. You know, the expense 
of computers will be used most hours of the day.
    And so I was wondering in terms of the research that you're 
doing there's a lot of information that might be gleaned when 
you see Lyft and Uber competing with each other raising and 
lowering costs. And you can see that the market responds pretty 
quickly to the uptake when they change their prices. So you 
might be able to get a lot of information on how under-
resourced communities start using ridesharing services as a 
function of price, and then understand a significant subsidy to 
those prices so that if you had access to automated Ubers, say, 
with a 50 percent or a 75 percent discount if you were a member 
of an under-resourced community, that could be a very effective 
way of delivering assistance in the community that would offer 
real economic help, as well as access to jobs, which is the key 
long-term thing.
    People use the big data sets from--that Uber and Lyft must 
have internally to look at how different communities use these 
services as a function of the price they charge?
    Dr. Bills. So there is a lot of promise there with regard 
to leveraging big data to understand travel behavior and 
therefore target communities in order to provide services that 
fit their needs. The challenge is--and this is based on the 
research that we're doing in Benton Harbor. Benton Harbor is a 
small city on the western coast of Michigan. And there are a 
lot of people who really struggle to access job opportunities 
in the area. They're transit-dependent. There are large 
percentages of the community that don't have automobiles 
accessible in the household, and so they are really dependent 
on transit. And the extent to which that we can improve transit 
to provide more coverage by leveraging smart mobility 
technologies will provide real returns to these communities.
    One of the barriers, however--and this is something that--I 
think that we know but we tend to forget is that, there are 
many people for who the digital divide is still present. They 
might have a smartphone, but it's not up to date. They are not 
positioned well to download an application and use it to call a 
Lyft or an Uber to take them, and so, you know, we've done a 
lot of outreach and interfacing with these community members. 
And it takes a lot of orchestration to get them to participate 
in generating this type of data. So there is a question of how 
well we're representing these communities because they are not 
contributing to the big data at the same rates that others 
might be.
    And so that's one thing to remember is that, you know, we 
do need to think about how well we can capture their needs 
given the existing ways that we're collecting data. It is true 
that we are in a position to provide real benefits to the 
community members, but we have to figure out smarter ways to 
make sure that we're capturing their needs.
    Mr. Foster. Yes, because I think everyone is worried that 
technology is going to drive even more inequality in wealth. 
You know, the potential loss of jobs and----
    Dr. Bills. Yes, that they will be left behind.
    Mr. Foster [continuing]. Most skilled--right.
    Dr. Bills. Yes.
    Mr. Foster. But on the other hand, there's this incredible 
observation that if you're a billionaire, you cannot get a 
better smartphone, which is probably the most important device 
in our lives. And just that simple fact means that there's a 
lot of equality that's being driven by technology, and 
transportation as a service delivered at very low cost to 
everyone would be a tremendous equalizer----
    Dr. Bills. Absolutely. Absolutely.
    Mr. Foster [continuing]. In our economic life. So I think 
this is a real source of encouragement for me and I want to----
    Mr. Dowd. Can I----
    Mr. Foster. Yes.
    Mr. Dowd [continuing]. Just try to give you a little bit 
more encouragement? So the community of practice that we talked 
about with the Texas Innovation Alliance and Smart Cities Lab, 
are 20 cities, we found something fascinating, which is that 
access to nonemergent medical care, right, trying to get people 
to the doctor was a significant problem because of cost, that 
they couldn't get there. Either that, or they had to take two 
buses, et cetera.
    And what we found in almost every one of the communities 
that we worked with, the public health folks were stepping in. 
They were stepping in and getting their own programs with Lyft 
and subsidizing the Lyft and not necessarily Uber. They found 
Uber difficult to work with. But----
    Mr. Foster. Geez, I wonder why. OK.
    Mr. Dowd. But with Lyft in a lot of the communities with 
the public health folks that's exactly what was happening. They 
have this little nascent incubating opportunity to get people 
to nonemergent medical care using Lyft on a subsidized basis.
    Mr. Foster. Right. And you can imagine even from the point 
of view of getting people to jobs, you know, if you had 
effectively access to free or very low-cost transportation on 
demand, it could be transformative to the economic opportunity 
of people.
    And so last question. What is the guess for how much 
cheaper the Uber ride will get when you go to full autonomy? Is 
that going to be a factor of two?
    Dr. Rajkumar. I guess the basic math is that roughly 75 
cents of every dollar that you pay Uber and Lyft goes back to 
the human driver, right? And then I guess in principle the 
vehicle can drive itself, that 75 cents stays with the company, 
right? So if--I guess----
    Mr. Foster. Well, then they'll compete and they'll lower--
and they'll stay with the consumer?
    Dr. Rajkumar. So the lower part would basically be 25 
percent.
    Mr. Foster. So there could be a factor of four reduction 
in----
    Dr. Rajkumar. A factor of four, but you have to worry about 
the initial investment basically is much higher, it needs to be 
maintained, needs to be delivered, needs to be picked up, and 
so on, so I think a factor of four is something that we can 
look at, but some people likely debate whether it'll be that 
high or not.
    Mr. Foster. Yes. But that's really promising because that 
means a relatively small subsidy can get someone to a job where 
then the job that they--you know, they'll end up paying more 
taxes than the subsidy--the value of the subsidy.
    Dr. Rajkumar. And we could even start with a very focused 
initial program where if somebody cannot have access to 
transportation to get to a job interview, they aren't going to 
get the job, right?
    Mr. Foster. Yes.
    Dr. Rajkumar. So even if we can just subsidize that first 
interview step, after that they start making money if you will. 
So it could be very targeted. We actually have a program at 
Carnegie Mellon that we basically had a foundation fund, a pot 
of money with which we generate coupons that we actually hand 
out to people in rural or suburban communities if you will that 
they can use to pay Uber.
    Mr. Foster. Yes. And you don't have to wait for the 
technology----
    Dr. Rajkumar. Correct.
    Mr. Foster [continuing]. To do that experiment----
    Dr. Rajkumar. Correct.
    Mr. Foster [continuing]. Because a human Uber is just as 
effective----
    Dr. Rajkumar. Correct.
    Mr. Foster [continuing]. As a--well, I just--now I have to 
personally jump on an airplane, but I just want to thank the--
--
    Chairwoman Stevens. Not an Uber.
    Mr. Foster [continuing]. Chairwoman again for having this 
hearing. It's--you know, it's--it really highlights the--you 
know, everything we're talking about is downstream of decades 
of Federal investment.
    And, you know, the DARPA (Defense Advanced Research 
Projects Agency) challenge that proved you could make self-
driving cars--you know, I represent Argonne National 
Laboratories where all of the lithium ion batteries in cars use 
cathode components developed, you know, more than a decade ago 
at Argonne National Lab. And it just goes on and on and on.
    And I just think one of the great things about this 
hearing, it should highlight the crucial role in Federal 
investment in the technology that shows up in, you know, the 
thousands and tens of thousands of jobs made right here.
    Dr. Rajkumar. Yes.
    Mr. Foster. So----
    Chairwoman Stevens. Thank you.
    Mr. Foster [continuing]. Thank you again.
    Chairwoman Stevens. Thank you, Dr. Foster.
    Well, before we bring the hearing to a close, I certainly 
want to thank our witnesses and our audience for participating 
and coming to today's hearing. It's certainly going to be a 
marker for us going forward. And it was significant to have 
those in Livonia, Michigan, and in southeastern Michigan, and 
we thank all of you for joining.
    The record will remain open for 2 weeks for additional 
statements from Members or for additional questions that the 
Committee may ask of the witnesses.
    And at this time our witnesses are excused, and the hearing 
is now adjourned.
    [Whereupon, at 11:34 a.m., the Subcommittee was adjourned.]

                                Appendix

                              ----------                              


                   Additional Material for the Record


           Letters submitted by Representative Haley Stevens
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           
           

              Presentation submitted by Mr. Scott Averitt
              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              


                                 <all>
</pre></body></html>
